                                     NATIONAL SCIENCE FOUNDATION                       ~'
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS
                                                                                      I
                               CLOSEOUT MEMORANDUM
                                                                                      1I
                                                                                      1
TO: AIGI      File Number: I97090051                                           Dake: 02 March 2002
                                                                                      11

Subject: Closeout Memo                                                                I     Page 1 of1


     There was no closeout written at the time this case was closed. The follo&ing information was
     extracted from the file in conformance with standard closeout documents.

     Our office was informed that the subject1was setting up improper contracts wikh foreign schools, and
     that conflicts of interests existed with the subject's efforts for these conhacts. We were also
     informed of other allegations about forged documents and problems with busi//essvisas. This matter
     was referred to the State Department Office of Inspector General.
                                                                                  I
